THE FEDERAL BUREAU OF INVESTIGATION'S
        AVIATION OPERATIONS

         u.s. Department of Justice
       Office of the Inspector Genera I
                Audit Division

           Audit Report 12-21
                March 2012




        REDACTED - FOR PUBLIC RELEASE
           AUDIT OF THE FEDERAL BUREAU OF INVESTIGATION'S
                        AVIATION OPERATIONS

                               EXECUTIVE SUMMARY*

      The Federal Bureau of Investigation's (FBI) Aviation Program is a
valuable component of the FBI's counterterrorism, counterintelligence, and
criminal investigative operations. According to FBI personnel, aviation
support significantly benefits FBI investigative and intelligence efforts and
enhances the safety, anonymity, and effectiveness of its oRerations.
Predominantly, FBI aviation resources are used to su ort
~In addition, the FBI uses aviation assets
_             during crisis response activities, and to transport personnel,
equipment, and evidence when necessary.

      The FBI's Surveillance and Aviation Section manages most of the FBI's
aviation operations and resources, and its aviation program budget for
FY 2011 was                    1 As of July 2011, the section's aviation fleet
included _    single and mUlti-engine fixed-wing aircraft and helicopters.
The section's Field Flight Operations Unit oversees aviation resources and
operations in the FBI's 56 domestic field divisions. The unit manages
97 percent of the section's aircraft. 2

     As of May 2~ the FBI employed _          Special Agent Pilots, including
_   full-time and _       part-time pilots. ~years (FY) 2009 and
2010 FBI data indicated that pilots flew _             flight hours. Nearly
             79 percent, of these hours were flown in support of FBI
operational activities. 3



       * The FBI identified within the full version of this report classified and other
information that if released publicly could compromise national security interests and the
FBI's operations. To create this public version of the report the OIG redacted (blacked out)
these portions of the full report.

       1 This amount does not include the salaries of Special Agent Pilots in the field, which
are budgeted with all special agent salaries at the headquarters level.

       2  Other aircraft are managed by the Special Flight Operations Unit which consists of
larger transport aircraft, which are predominantly modern jet airplanes used to transport
hazardous and explosive materials, evidence, and high-profile subjects.

      3 The remaining 21 percent of flight hours were flown for training and maintenance
purposes.
      Of these _       operations-related flight hours, FBI field division
operations accounted for 93 percent of the flight time. 4 Further, FBI data
indicates that     rcent of the field-based aviation flight time was flown in
support of

      In FBI field divisions, two types of specialized teams
surveillance su ort to FBI inve      ations. 5




                When surveillance teams are not available to field divisions,
field division investigative personnel may perform the ground surveillance
operation.

OIG Audit Approach

       The objective of this audit was to assess the FBI's management of its
aviation operations. Specifically, we analyzed the usage, prioritization, and
availability of FBI aviation assets, focusing on the FBI's use of aviation
resources in FBI field divisions during FYs 2009 and 2010. To accomplish
our objective we performed work at FBI headquarters in Washington, D.C.,
as well as the headquarters offices of the Aviation Surveillance Branch. We
also visited FBI divisions in
                                                       We interviewed the
Assistant Director of the FBI's Critical Incident Response Group, the Section
Chief of the Surveillance and Aviation Section, and Aviation Surveillance
Branch managers. Additionally, at field locations, we interviewed FBI
management and personnel responsible for an office's aviation operations,
including Assistant Special Agents in Charge, surveillance and aviation
supervisors, and pilots. We also interviewed field division management and
Special Agents in various program areas who request and benefit from
aviation support.

     In addition, we examined the FBI's procedures for requesting aviation
support and FBI flight activity data to determine how aviation resources


        4 The remaining 7 percent of operational-related flight hours were provided by
aircraft located at the Aviation Surveillance Branch headquarters.




                                             ii
were used to support FBI operations. Appendix I contains a detailed
description of our audit objective, scope, and methodology.

Results in Brief

       The FBI must strategically utilize its aviation resources to ensure its
priority cases receive sufficient support. When deciding how to prioritize the
use of its limited aviation resources, FBI field divisions considered the FBI's
national priorities and the most significant threats in an office's geographic
jurisdiction, along with the safety of the operation and other mission-related
factors. The FBI's overall data on field division aviation activity indicates
that aviation resources sup~BI's counterterrorism efforts, which is
its number one priority, in _             of its missions during FY 2009 and in
              during FY 2010.

       We found that the four FBI field divisions we visited complied with FBI
policy for requesting and approving requests for aviation support, submitting
requests in writing, and authorizing the usage of aviation resources at an
appropriate level. Three of the four offices we visited had developed
electronic forms to request surveillance and aviation support, and we
observed that one field division's form included a "dropdown menu" listing
the office's most significant threats. Currently, the FBI is deploying its
centralized Surveillance Program Integrated Reporting and Intelligence Tool
(SPIRIT) that all offices will use to request surveillance and to record
surveillance operation information and data. We recommend that SPIRIT
include the functionality to identify whether a surveillance request pertains
to a field division priority threat.

       While the FBI offices we visited correctly required personnel to submit
requests and approvals for aviation support in writing, we found that the FBI
can improve field division processes to best ensure that aviation support
managers consider all surveillance operations when prioritizing the use of
the FBI's limited aviation resources. The _           Division's procedures
involved a centralized request process where all approved surveillance
operations were considered for aviation su~wever, we found that in
other offices such as the               and _           Divisions, procedures
were segmented and did not consider all surveillance operations when
deciding the use of aviation resources. We determined that this
segmentation created a risk that all matters might not be considered for
aviation support. Given the different sizes, structures, and operating
environments of FBI field divisions, it is appropriate to have different
procedures for requesting and deciding how to use aviation resources.
However, we recommend, and the FBI Surveillance and Aviation Section

                                      iii
management agreed, that field divisions should review and prioritize aviation
support while considering all surveillance operations that would benefit from
aviation involvement.

       Additionally, we found that by capturing complete and consistent data
related to surveillance operations that would benefit from aviation support
but that did not receive support, the FBI could better understand the need
for aviation resources and better inform its decisions as to how it allocates
aviation resources. In the offices we visited, we found that the practices
varied for reporting this data. For example, the _           Division captured
only the number of unsupported aviation missions that were scheduled but
not flown, which results in underreporting the complete need for aviation
resources. We believe this process does not capture                 operations
determined to benefit from aviation support but not scheduled due to
aviation resource unavailability. This differed from other offices such as the
              Division which has rocedures to report unaddressed aviation
support for                        operations for which aviation support was
determined beneficial but not flown.

       We also found that by expanding the categories field divisions use in
reporting the reasons for not providing aviation support, such as noting
whether an "unavailable aircraft" was due to maintenance or to the aircraft
not being available for another reason at the time of the request, the FBI
could better understand the causes of unfulfilled requests. In April 2011,
the FBI issued guidance to its field divisions standardizing the submission of
data related to unaddressed aviation requests. While this standardized
reporting will assist the FBI in more easily analyzing the reported
unaddressed aviation request data, we do not believe it will ensure
consistent reporting and collection of this data at the field division level.
Accordingly, we recommend that the FBI ensure that field divisions report
unaddressed aviation requests in a manner that consistently and completely
captures the unmet need for aviation support for each office. This data will
allow the FBI to better understand the need for aviation resources and to
better analyze the causes for and effects of not being able to fulfill the need.

       Between October 2009 and June 2010 field divisions reported that
over _        aviation requests were unaddressed because flight crews were
unavailable, which was 52 percent of all unaddressed requests for aviation
support. FBI officials stated that it has been difficult for the FBI to recruit
qualified pilots. The FBI is attempting to address the shortage of pilots by
changing its recruitment practices, allowing new agents to become pilots
immediately following graduation from the FBI Academy, and hiring non-
agent personnel to pilot positions. Additionally, FBI officials stated that its

                                       iv
increase the availability of pilots to fly more missions.

      In addition, we found that the FBI should improve certain practices for
securin aircraft and ensurin the s        of its aviation ersonnel.




       Further, we found that FBI pilots in the field divisions we visited
generally completed the FBI's pre-flight risk assessment form. We also
found that some aviation personnel believed that these forms were
mandatory, while others suggested they were optional. In addition, at least
one pilot admitted that, at times, the risk assessment may not be prepared
by pilots until after the flight. At the audit close-out meeting, FBI aviation
officials clarified that completing risk assessment forms before take-off is
mandatory and required by FBI policy. However, because these forms are
reviewed after a mission is completed, we recommend that the FBI develop
a means to ensure that these forms are always completed before an aviation
operation.

      In our report we make 10 recommendations to assist the FBI in the
management of its aviation operations. Our full report contains detailed
information on the results of our review. The remaining sections of this
Executive Summary summarize our audit findings.

Overall FBI Aircraft Usage

       Due to the funding and specialized skills required to operate an
aviation program, FBI aviation assets are a limited resource whose use must
be prioritized to most effectively assist the FBI in preventing and disrupting
terrorism, criminal activity, and foreign intelligence efforts. The Assistant
Section Chief of the Surveillance and Aviation Section stated that of the FBI's
three most resource intensive pro
counterintelli ence and criminal



                                        v
~              exhibit, in FY 2009                        received
_              the aviation suppo~ to field divisions, and in FY
2010 this proportion increased to _ .

         Aviation Flight Hours in Support of FBI Field Divisions
                             By FBI Program
                      Fiscal Years 2009 and 2010




      Source: DIG analysis of FBI Aviation Surveillance Branch data

       In addition to the FBI's overall national priorities, field divisions
determine the most significant threats within their jurisdiction and develop
more specific local priorities which may not mirror the FBI national priorities.
In April 2011 guidance to field divisions, the Section Chief of the Surveillance
and Aviation Section stated that a field division's use of aviation resources
generally should align with a field division's most significant threats. For
example, in FYs 2009 and 2010 the                     ivision devoted
of its aviation support to                                    This level of support
ali ned the office's si nificant threat     rities and its investi ative effort.




                                           vi
     Additionally, FBI field division personnel responsible for surveillance
and aviation 0 erations consider factors       nd identified threats '



In FYs 2009 and 2010 the                                              of its
              tions to support                           . In addition, the
            ivision dedicated                            ent resources and
               its active caseload                        in FY 2010.

         As we discuss in more detail below, while the FBI's national and local
priorities along with safety and mission-specific factors help guide decisions
regarding the use of aviation assets, we found that the FBI should improve
field division processes to best ensure all                operations are
considered when prioritizing the use of the limited aviation resources.
Additionally, by capturing complete and consistent data related to the need
for aviation support, the FBI can better understand the demand for aviation
resources and better inform its decisions as to how aviation resources are
allocated.

Aviation Support Requests

       We found that the four offices we visited complied with FBI policy
~quests              for aviation support to be submitted in writing. In the
_             Division, a smaller field division with a relatively less active
aviation program, agents typically requested aviation support directly from
the office's only Pilot in Command via email or in official FBI internal
~ce. We found that the Divisions in
_              each used electronic forms to request surveillance and aviation
support. These forms required information such as the case number, case
agent, timeframe for the requested mission, and the mission objectives.
One office's form also included a dropdown menu with the field division's
highest priority threats, from which the requestor selected the appropriate
designation if applicable. We believe this type of feature is helpful when
deciding between competing requests for aviation support.

       The FBI is deploying its Surveillance Program Integrated Reporting and
Intelligence Tool (SPIRIT) system - a centralized information system for
tracking surveillance activities and capturing the intelligence obtained during




                                      vii
FBI surveillance operations. 6 All FBI field divisions will use this system,
which will include a standard electronic form for requesting surveillance and
aviation support. We recommend that the FBI ensure that SPIRIT also
includes the functionality to identify whether a request pertains to a field
division priority threat.

Prioritization of Aviation Support

       FBI policy states that FBI field division Special Agents in Charge or
their designees have the authority to approve and prioritize aviation
missions. In each of the four field divisions we visited, a Supervisory Special
Agent was designated to approve and prioritize aviation support. Procedures
for prioritizing aviation requests varied in the offices we visited based on the
field divisions' sizes, structures, and resources.

       In the              Division, personnel make all requests for
surveillance, whether ground or aviation, in a standardized electronic form
directed to the Coordinating Supervisory Special Agent (CSSA) for the
office's Surveillance Branch. This CSSA is responsible for reviewing and
prioritizing all requests, assigning surveillance operations to a Mobile
Surveillance Team (MST) or Mobile Surveillance Team-Armed (MST-A), and
determining whether to apply aviation support to a surveillance operation.
Each Friday, the CSSA developed the following week's surveillance schedule
and identified which surveillance operations should receive aviation support.
The supervisor of the                    ision's aviation program then scheduled
aviation ~ssions with the available aviation resources. We found
that the _            Division's process for assigning and prioritizing aviation
requests appropriately includes all surveillance requests.

      However, we found that the                             Divisions could
improve procedures to ensure aviation support is considered for all
surveillance operations. In both offices enforcement     onnel sent
for surveillance su   rt direct to




        6  In May 2011, the _               Field Division performed a pilot of SPIRIT, and
Aviation Surveillance Branch officials stated that the office provided positive feedback on the
system. The Aviation Surveillance Branch antiCipates SPIRIT being operational in all field
divisions by the end of FY 2012.
                                             viii
                                         The MST and MST-A supervisors
assess the surveillance requests they receive, determine their surveillance
schedules, and submit to the Aviation Supervisor requests for aviation
support prioritized through the consideration of local threats, national
priorities, operation safety, and other mission-related factors. The Aviation
Supervisor then schedules aviation support.

       FBI Aviation Surveillance Branch personnel agreed that a centralized
request and prioritization process for all surveillance requests is the best
model for field divisions to practice. This type of process best ensures that
decisions to allocate limited FBI aviation resources consider FBI priorities,
investigative outcomes, and enhancements to agent safety. We believe that
havin one individual review all aviation support surveillance requests _
                                         best enables the FBI to ensure all
relevant factors are considered when prioritizing the use of the FBI's limited
aviation resources.

       Aviation Surveillance Branch personnel stated that in addition to
encouraging a consolidated surveillance re uest review rocess the FBI also
is lookin at




Reporting Aviation Support

       After completion of a flight, a flight strip must be completed to
document each use of an FBI aircraft. The flight strip, which is normally
completed by the Special Agent Pilot that flew the mission, captures both
aviation-specific information, such as the pilot, crew, take-off and landing
times, and operation-related information, such as the case number and
operational results. During our field work, we found that Special Agent Pilots
consistently completed flight strips, and aviation supervisors reviewed these
      7

                                      ix
reports as required by FBI policy. Information from the flight strips is
entered into the FBI's Professional Flight Management (PFM) system, the
FBI's current information system for collecting and maintaining aviation
flight data.

      In reviewing PFM data, we found that the elimination of an FBI
investigative classification code can cause errors in PFM data. s Specifically,
when the FBI eliminated in FY 2010 an investigative classification code for a
specific type of counterterrorism investigative category, flight hours that
were undertaken in support of counterterrorism flights but listed under the
eliminated code were erroneously classified in support of criminal cases.
While aviation personnel stated that proper classification of the flight time
can still be obtained by querying its case management system, this would
require a burdensome process for verifying the data.

       FBI Aviation Surveillance Branch officials told us that the FBI is in the
process of upgrading its Bureau Aircraft Operations (BAD) system - the
aviation management system it used before implementing PFM. These FBI
officials stated that the system's functionality will be tailored to the FBI's
specific data collection, analYSiS, and documentation needs. We recommend
that the FBI also ensure that BAD 2.0, the upgraded system, will have the
ability to incorporate updates and additions to FBI classification codes and
similar data codes that can affect the accuracy of data contained in and
reported from the system.

Unfulfilled Requests for Aviation Support

      To provide aviation support to FBI operations, FBI pilots, aircraft, and
other necessary personnel and e               ent must be readil      available.
However, at times
can prevent the use of aviation assets. In other cases, aviation support may
not be provided if Special Agent Pilots are unavailable or an aircraft is
undergoing maintenance.         In these instances, FBI surveillance teams
typically still operate, but do not benefit from the value aviation support can
provide, such as enhanced safety and the advantageous aerial viewpoint not
otherwise available to a ground team.

       Prior to FY 2010 the FBI only collected data on the number of
unaddressed surveillance requests. Unaddressed aviation requests were not
specifically recorded until FY 2010 when the FBI required field divisions to

       8 FBI classification codes represent specific FBI investigative classifications, which
enable the FBI to evaluate operations and resource utilization overall and within specific FBI
programs, such as counterintelligence, domestiC terrorism, or public corruption.
                                              X
start reporti~essed aviation requests in one of three broad
categories: _          unavailable aircraft, or unavailable aviation crew. 9
According to FBI data for the 9-month period of October 2009 through June
2010 there were _        reported instances in which aviation support could
not be provided. As shown in the following exhibit, 66 percent of these
unaddressed requests were reportedly due to aircraft and aviation crew
unavailability.

                       FBI Unaddressed Aviation Requests
                        October 2009 through June 2010




                         xxxxxxxxx
                         JO(XX)QOQ(JO(

                              34%




                    Source: OIG analysis of FBI data

FBI Field Division Reporting of Unaddressed Aviation Requests

      Our review of overall unaddressed aviation request data for the period
of October 2009 to June 2010 showed great variation in the number of
unaddressed aviation requests that FBI field divisions reported. For
example, 4 field divisions with aviation programs reported no unaddressed




        9 In April 2011 , the FBI added a fourth category for unaddressed aviation requests
called "higher priority case."
                                             xi
flight requests, while the aviation program in the               Field Division
reported _     unaddressed flight requests. 10

       In the offices we visited, we found that the practices for collecting and
tracking unaddressed aviation support requests varied. The Special Agent
Pilots in the                Division used an internally developed database to
capture relevant information explaining why scheduled flights did not take
place. Likewise, the _              Division records aviation missions scheduled
but not flown as its unaddressed aviation requests. The                   Division
recorded unaddressed aviation support requests in an "abort log," and in
                  the Pilot in Command maintained a paper file of unfulfilled
requests for aviation support.

       Several aviation personnel in the                              IVlslons
stated that their respective offices lacked a sufficient numb~
Agent Pilots. While the                Division reported t h a t _
(98 percent) unaddressed aviation requests were caused by unavailable
aviation crew, the              ivision reported no unaddressed aviation
requests due to unavailable crew. In fact, the _Division only
reported. instances of unaddressed aviation requests, all of which were
reportedly due to unavailable aircraft.

       FBI guidance on reporting unaddressed aviation requests requires field
divisions to report "missions requested but not flown." We found that field
divisions did not apply this definition consistently in capturing ~
data on their unaddressed aviation support. For instance, the _
Field Division captured data on surveillance operations for which surveillance
squads determined that aviation support would be beneficial but that did not
receive support. FBI aviation officials stated that the               Division
captured the number of unsup~ation missions that were scheduled
but not flown. Therefore, the _              Division did not capture data on
surveillance operations that would benefit from aviation support but were
not scheduled. While the _             Division's surveillance request and
approval procedures appropriately considered all requests when prioritizing
aviation support, the process did not capture completely the unmet need for
aviation resources.

       Consistent practices for collecting and analyzing the reasons for field
divisions' unaddressed aviation requests can assist the FBI in identifying
individual field division aviation resource deficiencies, such as aircraft and




                                       xii
aviation crew shortages. In April 2011, the FBI issued guidance to its field
divisions that standardized the way unaddressed aviation request data is
submitted. While this standardized reporting will assist the FBI to more
easily analyze reported data on unaddressed aviation requests, the FBI must
also ensure that all field divisions accurately and consistently report this
information. Part of the standardization in reporting will require field
divisions to report whether unaddressed aviation requests were to support a
criminal, counterterrorism, or counterintelligence case. We believe this
information should assist the FBI in evaluating whether its high priority
program areas are being provided adequate support.

Aviation Crew Availability and Temporary Duty Assignments

       Between October 2009 and June 2010 field divisions reported that
over _         aviation requests went unaddressed because a crew was
unavailable, which was 52 percent of all unaddressed requests for aviation
support. FBI Aviation Surveillance Branch personnel stated that pilot
shortage is an issue and it has been difficult for the FBI to recruit qualified
pilots. For example, in                               we were told that cost of
living and commuting issues made it difficult to recruit and retain Special
Agent Pilots. In addition, the                ivision must recruit part-time
pilots willing to maintain a regular case load.




          pecial Agent Pilots
  n r.....r""'d that the usual length of TDY assignments is            and each
            enerally deploys for one or two TDY assignments a year. The
                   Division's Surveillance Supervisor stated that when aviation




                                        xiii
resources are deployed on TDY it results in limited aviation support in the
            Field Division.

      The FBI tracks unaddressed aviation support requests in general
categories, such as the "crew not available" category. The FBI does not
specifically track how many aviation requests are not fulfilled due to TDY
assignments. We believe that improvements to the FBI's collection of data
regarding unaddressed aviation missions will better enable the FBI to
understand the effect TDY assignments have on the availability of aviation
resources in particular field divisions.

       The FBI is attempting to address its shortag~rough
different recruitment practices. For example, the _ D i v i s i o n was
allowed to transfer a new agent with significant flying experience directly
into a pilot position, instead of requiring this individual to serve first on an
investigative squad. Other field divisions may want to consider exempting
new Special Agents with flying credentials from the FBI's typical practice of
first having the agent gain experience as an investigator.

       The FBI has also implemented a trial program in two FBI field divisions
that would allow non-agent pilots to fly FBI aviation operations in an effort
to alleviate Special Agent Pilot shortages. FBI officials told us that being an
FBI Special Agent as well as a pilot is beneficial but not required, and that
the addition of non-agent pilots will add depth to the FBI's pilot pool. We
recommend that the FBI review the results of its non-agent pilot program to
determine the initiative's success in alleviating pilot shortages.

Aircraft Availability

       Between October 2009 and June 2010, there were _reported
instances of unaddressed aviation requests due to unavailable aircraft,
(14 percent of all unaddressed aviation requests). However, we found that
the FBI does not discern the reason why aircraft was unavailable, such as
whether an aircraft was undergoing maintenance or whether an aircraft was
not available at the time of the request for other reasons besides
maintenance. We also found that the FBI does not centrally track the
number of days each FBI aircraft was undergoing maintenance. During our
audit, FBI officials told us that they anticipated including maintenance
separately from other reasons aircraft was unavailable in the reporting of
field division unaddressed aviation request data. Accordingly, we
recommend that the FBI implement the anticipated reporting changes to
identify when aircraft is unavailable due to maintenance separately from the
other reasons why aircraft may be unavailable.

                                       xiv
      In 2009, the FBI began upgrading its aircraft with
          a standardized avionics acka




      The FBI's aviation fleet replacement plan calls for _    million per year
to be expended on new aircraft which FBI officials acknowledged may not be
possible with future budgets. Nevertheless, FBI officials believe that the
FBI's current replacement initiative will prevent the FBI, several years from
now, from having to replace all of its aircraft at the same time. FBI officials
stated that the new          should




Aviation Security and Safety

      The FBI maintains field division aviation resources in
across the count




                                      xv
       Another safety aspect we examined is the FBI's use of pre-flight risk
assessments. We found that FBI pilots in the field divisions we visited
generally documented their pre-flight risk assessments of the safety of an
aviation operation using a standardized FBI form. Pilots in the field divisions
we visited told us that the risk assessment form is a useful tool that allows
pilots to self-:-evaluate their readiness for the mission, which also helps make
the pilot aware of potential risks and be better prepared to mitigate them
during the mission. The form assigns a point-value to each potential risk
factor and the cumulative point totals are used to categorize the level of risk
for the mission. Any mission that is considered to be above the FBI's
"minimal risk" level requires escalating levels of supervisory approval. For
instance, a "moderate risk" requires the approval of the pilots' assigned
Supervisory Special Agent, while a "high risk" flight requires the approval of
the field division's Assistant Special Agent in Charge and approval from the
Aviation Surveillance Branch.

       Pilots attach pre-flight risk assessment forms to the mission's flight
strip after the operation is completed. Some aviation personnel believed
these forms were mandatory, while others suggested that they were
optional. In addition, at least one pilot admitted that, at times, the risk
assessment may not be prepared by pilots until after the flight. At the audit




                                      xvi
close-out meeting, FBI aviation officials clarified that completing risk
assessment forms before take-off is mandatory and required by FBI policy.
However, because these forms are reviewed after a mission is completed we
recommend that the FBI develop a means to ensure that these forms are
always completed before all aviation missions.

Conclusion and Recommendations

       We found that in FY 2009 the FBI dedicated the largest proportion of
its aviation resources to                      and in FY 2010 it supported
                         most of the time. To best ensure that the limited FBI
aviation resources are used to support the highest priority matters, the FBI
must ensure that its field divisions are considering all surveillance operations
when making these decisions. Further, the FBI can improve its procedures
for collecting, in a consistent and complete manner, information on
surveillance operations that would benefit from aviation support but that did
not receive the support. This improvement will provide the FBI with an
understanding of the unfulfilled need for aviation support, enabling the FBI
to better assess the need for aviation involvement and to make more
informed decisions regarding the allocation and use of its aviation assets. In
addition, we believe the FBI can improve the sa       of its aviation      nnel
and assets      evaluatin the        bili of

                                   and improving the uniform use of pre-
flight risk assessment forms before all aviation missions.

       Our audit resulted in 10 recommendations to help the FBI enhance the
management of its aviation resources. This report includes
recommendations for the FBI to ensure that its field divisions, through a
centralized decision process, consider all surveillance operations when
prioritizing the use of aviation resources and to improve the data it collects
on unaddressed aviation support. We also make recommendations for the
FBI to include certain functionality in its new surveillance management and
aviation man         nt            Further, we make recommendations related
to better                                  ensuring the safety of its aviation
personnel.




                                      xvii
THIS PAGE LEFT BLANK INTENTIONALLY
AUDIT OF THE FEDERAL BUREAU OF INVESTIGATION'S
             AVIATION OPERATIONS

                            TABLE OF CONTENTS

INTRODUCTION ....................               1 •••••••••••••••••••••• II' II ••••••••••••••••••••••   1
FBI Aviation Resources .............................................. ......................... 1
  Aviation Fleet ..................................................... " ..................... ,11, •• 1
  Special Agent Pilots ......................................................................... 2
FBI Surveillance and Aviation Section ................................................... 2
DIG Audit Approach ............................................................................ 5


FINDING I: USE OF FBI AVIATION ASSETS
      TO SUPPORT FBI OPERATIONS .................................... 7
Use of FBI Aviation Assets ................................................................... 7
  Aviation Support at Field Divisions ................................................... 10
Aviation Support Requests ................................................................ 12
Prioritization of Aviation Support ........................................................ 13
Reporting of Aviation Support ............................................................ 17
Conclusion ...................................................................................... 18
Recommendations ...................... ............................... ....................... 19


FINDING II: FBI AVIATION RESOURCES .............................. 20
Unfulfilled Requests for Aviation Support ............................................. 20
  FBI Field Division Reporting of Unaddressed Aviation Requests ............ 22
Aviation Crew Unavailability .............................................................. 26
  Special Agent Pilot Shortages .......................................................... 26
  Special Agent Pilot Temporary Duty ................................................. 30
Unavailable Aircraft .......................................................................... 32
Aviation Fleet .................................................................................. 34
                                   ................................................................. 36
                                 ......................................... " ........................ 37
Pre-Flight Risk Assessments .............................................................. 37
Conclusion ...................................................................................... 38
Recommendations ............................................................................ 39
STATEMENT ON INTERNAL CONTROLS •••••••••••••••••••••••••••••••••• 40
STATEMENT ON COMPLIANCE WITH LAWS
      AND REGULATIONS ••••••••••••••••••••••••••••••••••••••••••••••••••• 41
APPENDIX I - OBJECTIVE, SCOPE, AND METHODOLOGY •••••••• 42
Objective ........................................................................................ 42
Scope and Methodology .................................................................... 42
Prior DIG Report ...........................................................'................... 43
APPENDIX 11- THE FEDERAL BUREAU OF
     INVESTIGATION'S RESPONSE TO THE REPORT •••••••••• 45
APPENDIX III - OFFICE OF THE INSPECTOR GENERAL
     ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
     TO CLOSE THE REPORT •••••••••••••••••••••••••••••••••••••••••••••• 48
   AUDIT OF THE FEDERAL BUREAU OF INVESTIGATION'S
                AVIATION OPERATIONS

                               INTRODUCTION

       The Federal Bureau of Investigation (FBI) protects and defends the
United States against terrorist and foreign intelligence threats, enforces the
criminal laws of the United States, and provides leadership and criminal
justice services to federal, state, local, and law enforcement agencies as well
as international agencies and partners. The FBI's aviation program supports
these missions by helping to enhance the effectiveness, safety, and
efficiency of FBI operations.

                                             are used to support FBI
                                         FBI aviation assets are used during
crisis response and                            FBI aviation resources also
provide support services, such as transporting personnel, equipment, and
evidence in a timely and secure fashion.

FBI Aviation Resources

       The FBI maintains a fleet of aircraft and employs trained Special Agent
Pilots and in-flight support personnel to support the FBI's highest priority
missions, including its counterterrorism and counterintelligence efforts.
According to FBI personnel, aviation support enhances its operations and
helps ensure the safety of FBI personnel and the public.


Aviation Fleet

       As of July 2011, the FBI Surveillance and Aviation Section, which
manages most of the FBI's aviation operations and resources, operated
•    aircraft in multiple aircraft categories, including single and mUlti-engine
fixed-win aircraft and helicopters. The age of FBI aircraft ranged from
                        . As of July 2011, FBI aircraft are located in. of the
FBI's 56 field divisions. _        of the FBI's larger field divisions serve as
regional aviation hubs, and house some of the FBI's more specialized




                                        1
aircraft, such as the                aircraft. 1 Three of these regional hubs
also serve as maintenance centers with FBI mechanics.

Special Agent Pilots

       As of May 2~ the FBI employed _             Special Agent Pilots, including
_     full-time and _    part-time pilots, as well as. non-agent pilots.
Before becoming a pilot for the FBI, the FBI prefers Special Agents to receive
full-time investigative experience for the first few years of employment.
However, on occasion a Special Agent has moved into a pilot position
immediately after graduating from the FBI Academy. According to FBI
officials, serving as an FBI pilot is strictly voluntary and FBI pilots may
transfer out of the aviation program and resume traditional investigative
case work at any time.

       The FBI generally require                                very flight. The
Pilot in Command has primary responsibility for the safe operation of the
flight and is the final authority for all flight-related decisions. FBI pilots may
only be designated as Pilot in Command for two ty           of ai        and th
must comply with specific FBI requirements. The                                  is
designated as the co-pilot and at a minimum must be certified to fly the type
of aircraft being flown.


FBI Surveillance and Aviation Section

      The Surveillance and Aviation Section of the FBI's Critical Incident


                                         _.2
Response Group manages the FBI programs and operations involving ground
surveillance and aviation resource~FBI operations. Its aviation
program budget for FY 2011 was                      The Aviation Surveillance




       2 This amount does not include the salaries of special agent pilots in the field which
are budgeted with all special agent salaries at the headquarters level.

                                              2
Branch of the Surveillance and Aviation Section primarily manages the FBI's
aviation-specific programs and includes the following three units. 3

    •   Aviation Support Unit - This unit is responsible for aircraft
        maintenance, Special Agent Pilot training, and aircraft safety and
        security.

   •    Special Flight Operations Unit - This unit maintains a fleet of four
        large transport aircraft, which are predominantly modern jet airplanes
        used to transport hazardous and explosive materials, evidence, and
        high-profile subjects domestically and, when needed, internationally.
        This unit also supports natural disaster response efforts, conducts
        emergency embassy evacuations, and provides air transportation to
        the Attorney General and FBI Director. In FY 2010, the Special Flight
        Operations Unit accounted for 7 percent of the FBI's total operational
        flight time.

   •    Field Flight Operations Unit - This unit oversees aviation operations
        within the FBI's domestic field divisions, which provide the vast
        majority of operational aviation support. This includes managing and
        monitoring how aviation resources located within the field divisions are
        used in support of investigative operations. The Field Flight
        Operations Unit is responsible for distributing and reassigning aircraft
        among the field divisions to best meet the needs of the FBI. This unit
        also sets and evaluates field division compliance with bureau-wide
        requirements on the usage of aviation resources. The Field Flight
        Operations Unit man ed 97            nt of the aircraft in the FBI's
        aviation fie

        FY 2009 and 2010, field division aviation operations accounted for
        93 percent of the total FBI operational flight hours. s Further, FBI data

      3 The Critical                                              FBI's Hostage Rescue
Team, which has                                                    its Tactical Helicopter Unit.
The use and man                                                           the H       e Rescue




       4 The remaining 3 percent of the FBI's aircraft are managed by the Special Flight
Operations Unit.

        S The remaining 7 percent of operational-related flight hours were provided by
aircraft located at the Aviation Surveillance Branch, this includes Special Flight Operations
Unit aircraft and Field Flight Operations Unit aircraft not located in the field divisions.
                                               3
       indicates that                   of the field-based aviation flight time was
       flown                                        activities.

       In FYs 2009 and 2010, FBI data indicates that FBI pilots flew _
_        flight hours. As Exhibit 1-1 shows, 79   rcent of these fl ht hours
supported FBI operational activities, providing
photography, transportation of personnel and equipment, and executive
transport of senior FBI officials. The remaining 21 percent were flown for
pilot training and aircraft maintenance purposes.

                                     Exhibit 1-1
                             FBI Aviation Flight Hours
                            Fiscal Years 2009 and 2010

       Maintenance
        xxxxxxxxx
        (4 percent)




                                                  Operational
                                                  XyyyY)()Cyy
                                                  (79 percent)




       Source: OIG Analysis of FBI Surveillance and Aviation Branch data




                   The Surveillance and Aviation Section's Mobile
Surveillance Branch oversees the operation of two types of ground
surveillance teams operating in FBI field divisions.




       6 Field division aviation resources were also used for other investigative purposes,

such as taking photographs and performing reconnaissance.
                                              4
   •


   •




                               Exhibit 1-2
                Surveillance Teams in FBI Field Divisions
                               M    2011
                                 MST-A
   Number of Teams
   Number of Field
   Divisions with Teams
  Source: FBI Surveillance and Aviation Section




OIG Audit Approach

      The objective of this audit was to assess the FBI's management of its
aviation operations. Specifically, we analyzed the usage, prioritization, and
availability of FBI aviation assets, focusing on the FBI's use of aviation
resources in FBI field divisions during FYs 2009 and 2010. To accomplish



       8 Pilots also are assigned to some field divisions without MST-As and used to fulfill
aviation needs for their respective office.
                                               5
our objective we performed work at FBI headquarters in Washington, D.C.,
as well as the headquarters offices of the Aviation Surveillance Branch. We
also visited FBI Divisions in
                                            . We interviewed the Assistant
Director of the FBI's Critical Incident Response Group, the Section Chief of
the Surveillance and Aviation Section, and Aviation Surveillance Branch
managers. Additionally, at field locations, we interviewed FBI management
and personnel responsible for an office's aviation operations, including
Assistant Special Agents in Charge, surveillance and aviation supervisors,
and Special Agent Pilots. We also interviewed field division management
and Special Agents overseeing and performing investigations that benefit
from aviation support.

      In addition, we examined the FBI's procedures for requesting aviation
support and FBI flight activity data to determine how aviation resources
were used to support FBI priority operations. Appendix I contains a detailed
description of our audit objective, scope, and methodology.




                                      6
            FINDING I: USE OF FBI AVIATION ASSETS
                       TO SUPPORT FBI OPERATIONS

             In FY 2009 the highest proportion of FBI field
            division aviation resources supported
                              and in FY 2010 most of the aviation
            support was provided to
            We found that the FBI offices we visited allocated the
            use of aviation resources according to the threats
            affecting the office's jurisdiction. We also found that
            FBI field divisions complied with the requirements for
            requesting and approving aviation support.
            However, we determined that some FBI field
            divisions' procedures did not ensure the
            consideration of all surveillance operations when
            prioritizing the use of the FBI's limited aviation
            assets. In addition, we found that changes to FBI
            investigative classification codes caused the FBI's
            aviation activity data to be inaccurate. Accurate
            information is important for the FBI to evaluate and
            manage field division use of aviation resources.


Use of FBI Aviation Assets

        The FBI maintains a fleet of airplanes and helicopters and employs
highly trained Special Agent Pilots and flight support personnel to assist its
efforts to prevent and disrupt terrorism, criminal activity, and foreign
intelligence efforts. FBI headquarters and field division personnel across FBI
programs told us that aviation support significantly benefited FBI operations,
~nhancing the safety, anonymity, and effectiveness of _
_               operations and increasing the FBI's ability to collect evidence
and intelligence.

       FBI aviation assets are a limited resource due to funding restrictions
and the specialized skills required to manage, fly, and maintain an
operationally ready fleet. As with any national program supporting FBI
operational efforts, aviation resources should be used to advance the FBI's
highest priority operations. Generally, the FBI's national priorities (shown in
Exhibit 1-1), as established by the Director, are used to guide the
prioritization and measure the appropriate use of FBI field divisions'
resources.


                                       7
                                      Exhibit 1-1
                           FBI Top I nvestlgatlve Priorities
        Investigative Priority                            FBI Program
        1) Counterterrorism                               Counterterrorism
        2) Counterintelligence                            Counterintelligence
         3) Cyber Crime                                                                                               Cyber
         4) Public Corruption
--------                                     ----                                              ----------
         5) Civil Rights
-------------------------------._-----------------------.--------------
         6) Organized Crime                                                                                           Criminal
-------------------------------------------.--------------------------------------------------
         7) White-Collar Crime
--------.----.------.------.---------------------------------------------------------------------------------------
         8) Violent Crime and Major Thefts
 Source: FBI

       During FYs 2009 and 2010 FBI Special Agent Pilots flew over _
ours during nearly ~Iight missions to provide aviation support to field
division investi ative 0 rations. As shown in Exhibit 1-2, in FY 2009
                                received the la est share of aviation support
provided to field divisions. In FY 2010                                 ceived
the majority of aviation support. The Assistant Section Chief of the
Surveillance and Aviation Section stated that of the FBI's three most
resource intensive       ram areas - counterterrorism counterintelli ence
and criminal




                                                                                              8
                           Exhibit 1-2
     Aviation Flight Hours in Support of FBI Field Divisions
                         By FBI Program
                  Fiscal Years 2009 and 2010 9




    Source: OIG analysis of FBI Aviation Surveillance Branch data




9   Due to rounding the FY 2010 percentages do not add to 100 percent.
                                       9
                                   Exhibit 1-3
                     Fiscal Year 2010 Aviation Flight Hours,
                   Special Agent Utilization, and Active Cases
                                   FBI P    ram 10




     Source: OIG analysis of FBI Aviation Surveillance Branch data




Aviation Support at Field Divisions

       During our aud        we conducted fieldwork at FBI field divisions with
aviation resources at

these four offices,
support, while the
aviation support to



      10   Due to rounding the flight hour percentages do not add to 100 percent.

                                             10
                                  Exhibit 1-4
              Aviation Flight Hours in Support of FBI Divisions
                           Visited By FBI Program
                             FYs 2009 and 2010




    Source: DIG analysis of FBI Aviation Surveillance Branch data

       In addition to the FBI's overall national priorities, field divisions
determine the most significant threats within their jurisdiction and develop
more specific local priorities that influence resource-related decisions.
Depending on a field division's jurisdiction, its most significant threats may
not mirror the FBI's national priorities. Field Intelligence Groups within eacl,
of the 56 field divisions determine a field division's highest priority threats.ll
Field division management use local priorities in deciding the expedient use
of its resources, including surveillance and aviation assets. The Aviation
Surveillance Branch evaluates a field division's use of aviation resources in
the FBI's Semi-Annual Program Review to determine whether the
prioritization of aviation resources was based on a field division's identified
local threats. Further, the Section Chief of the Surveillance and Aviation




        11 The Field Intelligence Groups is made up of FBI intelligence analysts, special
agents, language analysts, and surveillance specialists who conduct a strategic assessment
of threats to determine the highest threats within their respective field division.

                                            11
Section emphasized in April 2011 guidance to field divisions that aviation
usage generally should track field division threats. 12




      Additionally, there are other factors b
how -aviation su     rt should be allocated




Aviation Support Requests

       FBI policy requires that requests for aviation support be submitted in
writing. We found that the four offices we visited com ed with this       icy.
Three of the four divisions, specifically
                had active aviation programs and developed electronic forms
that enforcement agents and supervisors use to request surveillance and
aviation support. These forms required information such as the case
number, case agent, timeframe for the requested mission, and the mission
objectives. We observed in one office that the electronic form included a
"dropdown menu" containing the field division's highest priority threats. If

        12 Semi-Annual Program Reviews were developed by the Inspection Division to
examine field division performance in program accomplishments, intelligence production,
and utilization of resources. The objective is to strengthen field division Implementation of
the FBI's national strategy and to increase management oversight of field division
performance in achieving the FBI's strategic goals.
                                              12
the case for which support was requested was a field division priority, the
requester selected the appropriate designation in the dropdown menu. We
believe this feature is useful in helping to prioritize competing requests for
surveillance and aviation support.

       The              Division is a smaller office with only one part-time
Pilot in Command and a less-active aviation program than the other three
offices we visited. We found that aviation requests in this office were made
via email or in an electronic communication (an internal FBI
correspondence) .

        During our audit, we learned that the FBI is developing a standard
electronic request process for all offices to use when requesting ground and
aviation surveillance support. This electronic request process will be one
feature of the FBI's new Surveillance Program Integrated Reporting and
Intelligence Tool (SPIRIT) system - a centralized information system for
tracking surveillance activities and capturing the intelligence obtained during
FBI surveillance operations. 13 All FBI field divisions will use this system,
which will include a standard electronic form for requesting surveillance and
aviation support. We recommend that the FBI ensure that SPIRIT, which it
is currently deploying to field offices, also includes the functionality to
identify whether a request pertains to a field division priority threat.
Prioritization of Aviation Support

       FBI policy states that FBI field division Special Agents in Charge or
their designees have the authority to approve and prioritize aviation
missions. The four field divisions we visited each designated a Supervisory
Special Agent responsible for the aviation program, with the authority to
approve and prioritize aviation support. In the offices we visited procedures
for prioritizing aviation requests expectedly varied according 'to a field
division's size, structure, and resources. We discuss some of the differences
below.

       Until FY 2011 the               Division did not have a dedicated ground
surveillance team. Therefore, investigative squads performed surveillance
operations, or the field division requested the use of another field division's
ground surveillance team, and requests for aviation support were provided
directly to the office's only part-time Special Agent Pilot with Pilot in

        13 In May 2011, the _            Field Division piloted the SPIRIT system, and
Aviation Surveillance Branch officials stated that the office provided positive feedback on the
system. The Aviation Surveillance Branch anticipates SPIRIT being operational in all field
divisions by the end of FY 2012.

                                              13
Command credentials and to the pilot's Supervisory Special Agent
responsible for approving air support. We were told that in most instances,
requests for aviation support were approved as 10    as one of the field
~rt-time co-pilots was available
_.~ we found that for a major counterterrorism case in
FY 2010 the _ _ _ Division requested and received
ground and aviation support from other field divisions to help support this
high priority matter.

      The                Division's process for assigning and prioritizing
aviation requests appropriately includes all surveillance requests. All
requests for surveillance, ground or aviation, are forwarded to the
Coordinating Supervisory Special Agent (CSSA) for the _               Division's
Surveillance Branch using a standardized electronic form. The CSSA is
responsible for reviewing all requests and prioritizing them according to
national and field division priorities. If surveillance is approved, the CSSA
determines the type and combination of surveillance that best suits the
         decidin whether to a         n the surveillance 0 ration to

                       The CSSA stated that when there are competing
~for surveillance support that are of relatively equal priority for the
_          Division, he consulted appropriate operational staff to determine
the higher priority need. Each Friday, the CSSA puts together the
surveillance schedule for the following week and identifies on the schedule
which surveillance operations should receive aviation support. Upon receipt
of the schedule, the aviation supervisor schedules aviation support missions
with available aviation resources.

       As illustrated in Exhibit 1-4, the _        Division applied. percent
of its aviati~o counterterrorism matters during FYs 2009 and
2010. The _               Division identified counterterrorism threats as one of
its highest priorities, and the CSSA stated that counterterrorism matters
typically receive primary consideration for aviation support given these
priorities.

       We found that the rocesses for prioritizing aviation support in the
              Division and                  n surveillance requests went
directly to either the MST or the MST-A. In the               Division
aviation resources are mana ed as a separate entity
                                 . Special Agents performing investigations




                                        14
and their supervisors request surveillance support, determine whether to
request either MST or MST-A su         and forward their    uest to the MST
or MST-A su


                                                                The MST
coordinators and MST-A supervisors assess the surveillance requests they
receive and determine their surveillance schedules. If the MST coordinators
and MST-A supervisors determine that aviation support would be beneficial
to the surveillance operation, they forward the requests to the Aviation
Supervisor, who then schedules aviation support based on the list of
priorities received from both surveillance teams. Since the MST coordinators
and MST -A supervisors prioritize th~surveillance requests for
aviation support independently the _ D i v i s i o n did not have central
point of decision for considering all surveillance requests for aviation
~ the audit close-out meeting, FBI officials stated that the
_ D i v i s i o n reorganized its surveillance operations by placing both
MST-A, MST, and aviation under the authority of a single Assistant Special
Agent in Charge (ASAC). This ASAC is responsible for reviewing, prioritizing
and shifting surveillance assets to ensure critical, high-threat matters are
addressed.

      The             Division's MST, MST-A, and aviation resources were
assigned under a single ASAC. We found that                 IVlslon
enforcement personnel submitted requests for surveillance support to either
MST or MST-A and that the MST-A supervisor was responsible for assi ning
aviation resources to surveillance 0    tions. Unlike the              nd
             Divisions in the                  ivision
                                            ST-A surveillance requests
receive automatic consideration for aviation resources u on submission




            e found that the agents and supervisors handling the
investigations that need surveillance su   rt decide whether to send
   uests to MST-A or MST




                                     15
                 However, similar to the                Division, the
Division does not have a central point for considering all surveillance
operations in prioritizing what operations will receive aviation support. At
our audit close-out meeting the FBI stated that the                   ivision had
begun using the SPIRIT system, which the FBI stated allows both the MST-A
supervisor and MST coordinator to view all requests for surveillance.

       A process for prioritizing the use of aviation assets that includes all
surveillance operations best ensures that the use of aviation resources is
appropriately prioritized. FBI Aviation Surveillance Branch personnel agreed
that a centralized request and prioritization process for all surveillance
requests is the best model for field divisions to practice. FBI officials also
stated that all field divisions have assigned responsibility for all ground and
aviation surveillance resources and operations to the same ASAC, with the
             Field Division being the last to effect this consolidation. The
            Division had assigned MST and MST-A resources, including
aviation assets ~nel, to a single ASAC. However, as discussed
previously, the _ D i v i s i o n split its surveillance request process and
did not have a central point of decision for considering the needs of all
surveillance operations when prioritizing the use of aviation resources.

      We believe a single point of decision best enables the FBI to ensure all
relevant factors are considered when rioritizin the use of the FBI's limited




                                                these requests may not
always get full consideration without a centralized decision process. Aviation
Surveillance Branch personnel stated that in addition to encouraging a
consolidated surveillance     uest review rocess the FBI also is lookin at




                                       16
Reporting of Aviation Support

       After completion of a flight, a flight strip must be completed to
document each use of an FBI aircraft. The flight strip, which is normally
completed by the Special Agent Pilot that flew the mission, captures
aviation-specific information, such as flight crew information, date, time, and
length of mission, as well as information regarding the operational aspects of
the mission, such as the type of operation, the case number, operational
results (if applicable) and other general information. Information from the
flight strips is then entered into the FBI's Professional Flight Management
(PFM) system, the FBI's aviation flight data collection system. During our
field work, we found that Special Agent Pilots consistently completed flight
strips for missions flown. Additionally, we found that FBI aviation
supervisors oversee mission reporting and its entry into PFM.

       PFM is an off-the-shelf corporate aviation software application that the
FBI determined was the most cost-effective way to upgrade its aviation
information system. However, the FBI has encountered challenges
modifying PFM to meet the FBI's operational requirements. PFM was
designed to assist an aviation program's efforts to track compliance with
aviation-specific requirements, such as aircraft maintenance and pilot
training. Though not intended for analyzing the operational use of aircraft,
the FBI has modified the PFM software to capture multiple types of
investigative data, such as the field division and case classification codes, to
help track and analyze the use of aviation assets.15

      The FBI reviews its case classifications quarterly, and additions,
eliminations, and modifications are made as necessary. We found that the
elimination of a classification code can cause errors in historical PFM flight
data to occur. In one instance, we found that PFM substituted an unrelated
case classification code in the FY 2009 flight data when the classification
code was eliminated and subsequently removed from PFM in FY 2010.
Consequently, flight hours flown in support of counterterrorism flights, but
entered into PFM under a classification code that was subsequently
eliminated, were erroneously classified in PFM as having been flown in
support of criminal cases.


        15 FBI classification codes represent specific FBI investigative classifications, which
are assigned to FBI programs or subprograms. For instance, the FBI has numerous codes
associated with specific types of counterterrorism cases and these codes enable the FBI to
track and analyze its operations at a very specific level. Additionally, the use of
classification codes help the FBI evaluate operations and resource utilization at a higher
level, such as we previously presented on the FBI's use of aviation assets in support of
criminal, counterterrorism, and counterintelligence matters, overall.
                                               17
                                  of PFM data showed that in FY 2009

                                                                             The
Aviation Supervisor in                  ted that he was aware of errors in PFM
data and that he relied instead on the actual flight strips when he compiled
his field division's aviation statistics.

        Aviation personnel stated that proper classification of flight time can
still be obtained by querying its case management system. However, this
would require verifying all missions in support of cases where the
classification code was replaced or eliminated, which is burdensome and
severely weakens the utility of PFM in collecting and analyzing aviation data.
PFM also poses other issues. FBI officials stated that the software was
designed to run on the Internet as opposed to the FBI's secure intranet,
resulting in slower accessibility and processing. Additionally, high user-
license fees require the FBI to limit access to the system.

        Prior to using PFM, the FBI developed and used its Bureau Aircraft
Operations (BAD) system. FBI Aviation Surveillance Branch officials told us
that the FBI determined that it can upgrade this former system and that
funding for an in-house upgrade of BAD (BAD 2.0) by FBI software
programmers was approved and modifications are being written. These FBI
officials stated that the system will replace PFM, and its functionality will be
tailored to the FBI's specific data collection, analysis, and documentation
needs. The FBI plans to use BAD 2.0 for aviation mission scheduling as well
as to track and analyze important data on completed flight missions.
Further, BAD 2.0 is expected to provide real-time flight information to an
expanded user base, so that current flight activity, such as missions in
progress, is readily accessible. We recommend that the FBI also ensure that
BAD 2.0 has the ability to incorporate updates and additions to FBI
classification codes and similar data codes that can affect the accuracy of the
system's reporting.

Conclusion

       Aviation resources, like all FBI operational resources, must be used to
support the areas of highest priority and greatest value to the FBI. The
FBI's national priorities and each field division's local priority threats are
supposed to be used to guide this decision making. We found FBI field
divisions were using these priorities and considering the safety of an
operation and other miSSion-specific factors when prioritizing the use of
aviation resources.


                                       18
       However, we found that in some field divisions surveillance requests
went to either an MST-A or MST team instead of single point for
consideration and prioritization of aviation support. Consequently, these
offices did not consider all surveillance requests as a whole when decidin
which 0      tions aviation assets would su



                                                                         We
believe, and FBI Surveillance and Aviation Section management agrees, that
field divisions should review and prioritize aviation support considering all
surveillance operations that would benefit from aviation involvement.
Recommendations

     We recommend that the FBI:

      1.   Ensure that its SPIRIT system includes the functionality to identify
           whether a surveillance request pertains to a field division priority
           threat.

     2.    Ensure that field divisions, through a centralized decision process,
           consider all surveillance operations when prioritizing the use of its
           aviation resources.

     3.    Ensure that BAD 2.0 has the ability to incorporate updates and
           additions to FBI investigative classification codes and similar data
           codes that can affect the accuracy and utility of the system's
           reporting.




                                       19
      FINDING II: FBI AVIATION RESOURCES

      We found that FBI field division data indicated and FBI field
      division procedures demonstrated that the FBI does not
      capture in a consistent manner data on its field divisions'
      unmet need for aviation support. Inconsistent reporting of
      this data prevents the FBI from effectively identifying field
      division aviation resource needs and deficiencies. We
      believe the FBI can improve its data on surveillance
      operations that would benefit from aviation support but did
      not receive support. For instance, more complete and
      consistent reporting of this data could help the FBI better
      identify trends in aviation crew unavailability and
      determine the appropriate number of pilots assigned to its
      field divisions. It could also assist the FBI in determining
      the effect temporary duty assignments have on the
      availability of aviation resources. Furthermore, we believe
      that the FBI should require its field divisions to report
      when an aircraft is unavailable due to maintenance
      separate from other causes of aircraft unavailability. This
      should also assist the FBI in determining the best approach
      to address aviation resource needs and deficiencies in its
      field divisions.

      In addition, we believe the use
      poses an additional safety risk to FBI aviation assets and
         rsonnel. The FBI should examine the       ssibili



      helping maximize security.


Unfulfilled Requests for Aviation Support

       To provide aviation support to FBI operations, FBI pilots, aircraft, and
other necessa       rsonnel and e      ment must be readily available.
                                                           can prevent the
use of aviation assets and in those instances FBI surveillance teams typically
still operate but do not benefit from the value aviation support can provide,
such as enhanced safety and the advantageous aerial viewpoint not
otherwise available to a ground team.


                                      20
       For FY 2009, the FBI only collected data on the number of
unaddressed surveillance requests, which included both unaddressed
aviation and ground surveillance requests. The FBI did not record data
separately on unfulfilled aviation support. Because the FBI collected only
the number of unaddressed surveillance requests in FY 2009, it could not
use the data to assess the reasons why aviation requests went unsupported.
Beginning in FY 2010, the FBI required field divisions to start rep~
unaddressed aviation requests in one of three broad categories: _
unavailable aircraft, or unavailable aviation crew. 16

      According to FBI data covering October 2009 through June 2010, there
were _      reported instances in which aviation support could not be
provided. Exhibit 2-1 shows the breakdown of these unaddressed aviation
support requests in the reporting categories established by the FBI.

                                 Exhibit 2-1
                      FBI Unaddressed Aviation Requests
                       October 2009 through June 2010




                          xxxxx.xx
                          )o(X)OOlKYXX
                               34%




                 Source: FBI


        16 In April 2011 , the FBI added a fourth category for unaddressed aviation requests
called "higher priority case,"
                                             21
       As shown in Exhibit 2-1, _     was the second reatest reason for
unaddressed aviation support. Because
we excluded these instances from our analyses of the FBI's unaddressed
aviation support requests. Of the remaining _      unaddressed aviation
support requests, 21 percent were reported to be due to aircraft
unavailability and 79 percent were reported to be due to aviation crew
unavailability.
FBI Field Division Reporting of Unaddressed Aviation Requests

       We found the four FBI field divisions we visited used different methods
to collect and track unaddressed aviation support requests. For example, in
the              Division, we were told that an "abort log" was maintained for
~ights that were not supported. The Pilot in Command in the
_             Division maintained a paper file for requested flights that were
unfulfilled. In the             Division, when a scheduled flight was not
flown, the Special Agent Pilots generated ~strip" using an internally
developed flight database. Likewise, the _            Division records aviation
missions scheduled but not flown as its unaddressed aviation requests.
Exhibit 2-2 shows the breakdown of the reported reasons for unaddressed
aviation support requests for each of these FBI field divisions.




                                      22
                               Exhibit 2-2
               Reasons for Unaddressed Aviation Requests
                          for Divisions Visited
                      October 2009 to June 2010




      Source: FBI

       While the _           Division reported no instances of unaddressed
aviation requests due to unavailable crew, several aviation personnel in the
_          Division informed us that they were short Special Agent Pilots.
One supervisor specifically told us that the _           Division "lacks pilot
depth." Another supervisor stated that although the _               Division had
• Special Agent Pilots at the time of our interview, he thought. pilots
would be optimal. However~ data in Exhibit 2-2 indicates, the
           Division reported _ _ instances of unaddressed aviation
requests, all of which it attributed to unavailable aircraft. None of the
instances reported were due to lack of available aviation crew.

       During our audit we met with FBI aviation officials and asked for an
explanation as to why the _            Division's reported number of
unaddressed aviation requests a       ared low. According to these officials,
the _          Division's unique                           procedure may not
adequ~ure all unaddressed aviation requests. As noted in Finding I,
in the _         Division, one individual is responsible for prioritizing all
                                      . 23
surveillance requests and then deciding which surveillance operations will
receive aviation support. We believe this centralized decision-making
process is beneficial in helping to ensure that the use of surveillance and
aviation resources is properly prioritized. However, when reporting on its
unaddressed aviation support, the _            Division captures only the
number of aviation missions that are scheduled and then not flown.
Therefore, the _           Division does not capture surveillance missions that
would have benefited from aviation support but were not scheduled to
receive aviation support, whether it was due to insufficient resources to
cover the demand or an issue such as aircraft maintenance or a pilot being
on approved leave. In short, we do not believe the data reported allows the
FBI to understand the _Division's true, unmet need for aviation
support.

       Like the                  ivision, aviation personnel in the
Division told us that they were short Special Agent Pilots. According to a
              Division official, as of June 2010, the                  Division had
     Special Age~although its o~ber of pilots was.. In
contrast to the _ _ Division, the _                        Division reported that.
of i t s . (98 percent) unaddressed aviation           uests were caused by
unavailable aviation crew. Althou h the                                           ons
                                                         orted to us similar
concerns regarding the shortage of Special Agent Pilots, the total number of,
and the reasons for, re~nces of unaddressed aviation requests
varied greatly. In the _ D i v i s i o n , one person does not prioritize all
surveillance requests; instead, surveillance teams determine the need for
aviation support and submit requests directly to the aviation squad. The
aviation squad then prioritizes the aviation support requests as we discussed
in Finding 1. Accordingly, the                  Field Division's aviation squad is in
a position to capture the need for aviation support as it is aware of
surveillance operations for which surveillance squads have determined that
aviation support would be beneficial.

       In addition to reviewing the data for the field divisions we visited, we
also reviewed the overall unaddressed aviation request data for the period of
October 2009 to June 2010. The data showed great variation among the
number of unaddressed aviation requests reported by FBI field divisions. For
example, 4 field divisions with aviation programs ~no unaddressed
lliabt requests, while the aviation program in the _            Division reported
                                   17
. . unaddressed flight requests.




                                         24
       We believe that it is unlikely that an FBI aviation program operates
~essed aviation requests, including those caused by
_ . We also believe that due to the varying application of
the criteria for reporting unaddressed aviation support many of these field
divisions may have understated the number of unaddressed aviation
requests while others m        have overstated the number. Aviation personnel
in the                               Divisions informed us that aviation
personnel in some field divisions may not submit statistical data regarding
unaddressed aviation requests due to concerns that this data would reflect
negatively on the field division when the allocation of aviation resources is
considered. In addition, these aviation managers told us that FBI
management does not emphasize the importance of collecting statistical
data regarding unfulfilled aviation requests. When we met with FBI officials
in May 2011, they stated that unaddressed aviation requests have been
particularly difficult to capture. According to these officials, they are
continuing to revise the collection procedures for this data and they
recognize that continued improvement is necessary. Further, we believe
capturing data that reflects accurately on each field division's need for
aviation support will afford the FBI important information to use in making
decisions on the allocation of its limited aviation resources.

       Accurate and consistent collection and analysis of the reasons for field
divisions' unaddressed aviation requests can assist the FBI in identifying
individual field division aviation resource deficiencies, such as aircraft and
aviation crew shortages. We note that in April 2011, the FBI issued
guidance to its field divisions regarding unaddressed aviation requests. This
memorandum defined unaddressed aviation requests as missions "requested
and then not flown." The memorandum further provided guidance on the
standardized submission of unaddressed aviation request data. While
standardized reporting will assist the FBI in more easily analyzing the
reported unaddressed aviation request data, we do not think it will ensure
consistent reporting and collection of this data at the field division level.
Furthermore, we do not believe the use of the unaddressed aviation request
definition will allow the FBI to capture the true, unmet need for aviation
support. Accordingly, we recommend that the FBI ensure that field divisions
are~sistent manner, data on and the appropriate reason
for _                    operations that would benefit from, but that did not
receive, aviation support.

      As previously noted, beginning in FY 2010 FBI field divisions only
reported the number of instances of unaddressed aviation requests in three
broad categories. However, the type of case that did not receive aviation
support was not recorded. According to the guidance issued in April 2011,

                                      25
field divisions must now include whether unaddressed aviation requests were
for a criminal, counterterrorism, or counterintelligence case. This
information should allow the FBI to better determine if it is adequately
supporting its high priority program areas.

Aviation Crew Unavailability

      FBI officials told us that the FBI does not specifically allocate a certain
number of Special Agent Pilot positions for each field division. Instead, the
FBI allocates a specific number of positions for its armed mobile surveillance
teams MST- for each field division. From that allocation

                                          As of March 2011, the FBI reported
               MST-As which at the full recommended complement would
require     full-time Special Agent Pilots. However, the FBI reported that
there were       full-time Special Agent Pilots as of May 2011. 18
Furthermore, as of May 2011, of the. field divisions with MST-A teams, •
(31 percent) had fewer than. full-time Special Agent Pilots on each MST-A
team. 19

Special Agent Pilot Shortages

       The composition of each MST-A is generally left to the discretion of
field division management based on personnel needs. Exhibit 2-3 shows
the MST-A allocation and the number of Special Agent Pilot positions filled in
the four field divisions we visited.




       18 The FBI also utilizes part-time Special Agent Pilots. These positions are not filled
through MST-A allocations. Instead, these pilots are Special Agents who fly as a collateral
duty in addition to managing a full-time case load. As of May 2011, the FBI had. part-
time Special Agent Pilots.




                                              26
                                 Exhibit 2-3
                         MST-A Resource Allocation
            for Divisions Visited During Fieldwork with MST-As
                                  M   2011




Source: FBI Surveillance and Aviation Section Field Resource Allocations

                         Division was below the allotted MST-funded staffing
                                                ivisions were fully staffed. The
                              Divisions stated that they had a shortage of
Special Agent Pilots. In our review of unaddressed aviation requests, we
found that the                  ivision reported. instances of unfulfilled
aviation requests due to unavailable aviation crew between October 2009
and June 2010. While the                   ation program did not report any
instances of unfulfilled aviat~sts due to unavailable aviation crew,
FBI officials stated that the _          Division's unique surveillance request
procedure may not adequately capture all unaddressed aviation requests.

       In addition to the field divisions we visited, we also reviewed pilot
staffing and unaddressed aviation        uests for other FBI field divisions. We
found that the                               Divisions had I pilots for each of its
MST-As, but these offices still reported a large amount of unfulfilled aviation
requests due to unavailable aviation crew. Specificall ,between October
2009 and June 2010 the _            Division re rted       unfulfilled requests
due to unavailable aviation crew and the                    ivision reported _
instances. In addition, the                             Divisions reported high
numbers of unfulfilled aviation requests due to unavailable aviation crew,
.and .unfulfilled requests, respectively. These two divisions operate
aviation programs with part-time pilots, only.

       Unavailable aviation crew affects the FBI's ability to provide aviation
support. As noted above, consistent and accurate reporting of unaddressed
aviation requests should give the FBI a clearer picture of why aviation
requests in certain field divisions go unaddressed. If this data suggests
consistent crew unavailability in a field division, the Surveillance and
Aviation Section should work closely with that field division to determine the
appropriate number of pilot positions.

                                            27
      FBI Initiatives to Address Special Agent Pilot Shortages

       When we asked aviation personnel why recruiting pilots was difficul
~d              a number of reasons. We were told that for the
_ D i v i s i o n s cost of living and co~ues make it difficult to
recruit and retain Special Agent Pilots. In _ , the office has the
difficult task of finding qualified pilots willing to fly on a part-time basis while
also maintaining a regular case load. The FBI has recently attempted to
address its shortage of pilots through the use of trial initiatives implemented
in selected field divisions. FBI officials said that if these initiatives prove to
be effective, they could be expanded throughout the FBI.

      The first initiative relates to the FBI's efforts to ensure that its pilots
are fully integrated as FBI agents prior to becoming Special Agent Pilots.
According to aviation personnel, this effort has at times been detrimental to
the aviation program because a new recruit who possesses pilot credentials
could see those credentials expire while serving as a new Special Agent.

       In an attempt to address this concern, when a former military pilot
~icant flight credentials was graduating from the FBI Academy, the
_Division requested approval to allow this individual to begin flying
for the office immediately instead of a~his individual to an
operational squad. FBI officials in the _           Division told us that there is
a need to recruit new agents with pilot experience and to provide an
opportunity for Special Agents to maintain their flight credentials. These
officials said they recognized that investigative training and experience is
important; however, they said they believe that allowing new Special Agents
to maintain flight credentials could increase the FBI's pilot pool.

       In an effort to alleviate Special Agent Pilot shortages, the FBI has also
implemented a trial program in two FBI field divisions that would allow non-
agent pilots to fly FBI aviation operations. This initiative required the FBI to
create a new job description titled "Investigative Specialist - Aerial" with two
primary conditions for candidates: (1) Investigative Specialists-Aerial will
receive the same training as regular Investigative Specialists and when not
flying, will be expected to work "on the street," and       all Investi tive
~will be capa~ting the
_ h e aircraft _                             platforms.

      FBI officials told us that being an FBI Special Agent as well as a pilot is
beneficial but not required, and that the addition of non-agent pilots will add
depth to the FBI's pilot pool. They believe that as long as a pilot is qualified
and safe the pilot should be able to fly FBI aircraft. At the conclusion of the
                                        28
audit FBI aviation officials told us of a proposed plan to
                      surveillance teams under the same management.
According to these officials, the hiring of non-agent pilots could benefit the
FBI's surveillance teams by increasing the number of pilots available to
support all investigative activities.

       As we note above, better collection of unaddressed aviation request
data should help the FBI identify the causes of pilot unavailability in its field
divisions. We also believe that the non-agent pilot program has the
potential to address pilot unavailability in field divisions with identified pilot
shortages. As such, we recommend that the FBI review the results of its
non-agent pilot program to determine the initiative's success in alleviating
pilot shortages.

       In addition the FBI's current practice
                            increases the demand for Special Agent Pilots in
offices already strained by pilot sho    es. Another initiative that the FBI is
considerin is a review of the




       We believe that eliminating the need f o r . Special Agent Pilots for
aviation operations could help alleviate FBI Special Agent Pilot shortages and
increase efficient use of FBI aviation resources. Accordingly, we
recommend, as the FBI expands the use of the _             system, that it
continually assess the effect of the system on its aviation program to better
determine personnel and operational needs.



                                        29
Special Agent Pilot Temporary Duty

      The FBI deploys MST-As from their permanent assigned offices to
assist other offices on a temporary basis - a temporary duty
assi nment          - hel    fulfill the other field divisions' 0




Special Agent Pilots and air assets travel
aviation-only TDY assignment.

       FBI officials reported the usual length of TDY assignments is _
_       , and each team generally conducts one or two TDY assignments a
year. FBI offices with specialized aircraft and equipment may receive more
TDY requests than FBI offices with standard aircraft. FBI TDY assignments
are generally determined on a volunteer basis. However, in the event
volunteers are not secured, the FBI Aviation Surveillance Branch will select
an office for the TDY. FBI officials said they do not formally track the TDY
hours by pilot or by office. However, the FBI provided us with information
describing which field divisions requested assistance, which field divisions
provided assistance, and the length of deployment. Exhibit 2-4 below
provides general information on FBI TDY activity for FYs 2009 and 2010.

                                     Exhibit 2-4

                           Temporary Duty Activity
                        For Fiscal Years 2009 and 2010




 Source: FBI Surveillance and Aviation Branch



                                       The           Division's MST-A
Surveillance Supervisor stated that when aviation resources are deployed on
TDY, it results in limited aviation support in the          Division during
the TDY deployment. According to FBI officials in the             Division, its
MST-As are deployed more frequently on TDY assignments because of the
high number of MST-As in that office. We reviewed the TDY assignment

                                          30
data for FYs 2009 and 2010 for the divisions we visited during field work as
shown in Exhibit 2-5.

                                         Exhibit 2-5

      Number of TDY Assignments Involving Aviation Resources 20
                        For Divisions Visited
                    Fiscal Years 2009 and 2010




       Source: FBI Surveillance and Aviation Branch

      As Exhibit 2-5 shows, the             nd
more TDY deployments to assist other offices than the               and
             Divisions; however, these offices also have more surveillance
teams. After reviewing the overall aviation TDY deployments for FYs 2009
and 2010, we found that the                Division also had a high number of
aviation-only deployments in those fiscal years.

      When comparing all FBI field divisions we found three divisions with a
high number of TDY deployments in FYs 2009 and 2010. Exhibit 2-6 shows
the data for these three field divisions.




                                      Therefore, the deploying field division's ability to
supply aviation support to surveillance operations may be affected.
                                               31
                                         Exhibit 2-6

                  Three FBI Divisions with High Number
            of TDY Assignments Involving Aviation Resources 21
                       Fiscal Years 2009 and 2010




Source: FBI Surveillance and Aviation Branch

        All three of these divisions reported that at least 98 percent of their
unaddressed aviation requests were due to unavailable aviation crew.
However, as mentioned earlier, the FBI tracks unaddressed aviation support
requests in general categories, including an "unavailable crew" category.
The FBI does not specifically track how many aviation requests were not
fulfilled due to TDY assignments. We believe that once the FBI improves its
collection of unsupported aviation mission data, it will have a better idea of
the effect TDY assignments have on the availability of aviation resources.
Unavailable Aircraft

       As of July 2011, the FBI's Aviation Surveillance Branch operated _
aircraft in • division offices and headquarters units. 22 Between October
2009 and June 2010, there were _        reported instances of unaddressed
aviation requests due to unavailable aircraft, (14 percent of all unaddressed
requests).




                                          Therefore, the deploying field division's ability to
supply aviation support to surveillance operations may be affected.

      22 The FBI has an additional 41 aircraft which are designated as "soon to be sold";
however, soon to be sold aircraft are not utilized for operations.

                                              32
      FBI aircraft are maintained in accordance with Federal Aviation
Regulations and aircraft manufacturer guidelines. 23 FBI officials stated that
for both modern and legacy aircraft, the appropriate maintenance schedule
can be used to calculate an expected number of days for scheduled
maintenance in a calendar year. 24 The FBI does not centrally track the
number of days each FBI aircraft was in maintenance. Exhibit 2-7 shows the
FBI's estimated days of scheduled maintenance.

                                     Exhibit 2-7
                  Estimated Days of Scheduled Maintenance
                    b»y N um b er 0 f FI"Igiht Hours Complete
                                                           I  d
                                            Estimated Number of Days of
              Flight Hours                Scheduled Maintenance by
               Completed                         Aircraft Type
                                    Modern Aircraft Legacy Aircraft
                       50                        1               1
                      100                        3               5
                      150                        1               1
                      200                        3               5
                      250                        1               1
                      300                        3               5
                      350                        5               1
                      Total                     17              19
              Source: FBI

      After analyzing the reported reasons for unaddressed aviation
requests we found that three field divisions reported that 100 percent of
their                 related unaddressed aviation requests resulted from
aircraft unavailability.25 In the _        Division, all. reported instances
of unaddressed aviation requests were re             due to aircraft
unavailability. Likewise, the                                 Divisions reported



        23 In addition, the FBI's modern aircraft will be subject to the FAA approved
progressive inspection program. Legacy aircraft will be maintained using a generic system
of annual 50 and 100 hour inspections. Where no 100 hour annual inspection checklist
exists, FBI mechanics will follow Appendix D to 14 C.F.R. § 43 and manufacturer guidance.




       25 In addition two FBI field divisions without aviation programs,
also reported 100 percent of their                           naddressed aviation requests
resulted from aircraft unavailability.
                                             33
that all unaddressed aviation requests   C_,        respectively) were due to
unavailable aircraft.

       When we reviewed the FBI's reported unaddressed aviation request
data due to unavailable aircraft, we found that the FBI does not discern the
reasons why aircraft were unavailable. For example, aircraft may be
unavailable due to maintenance or because there are an insufficient number
of aircraft available at the time of the request; however, the FBI cannot
quantify how often these situations occur. Because the FBI cannot quantify
these situations, it is unable to identify the best approach to address the
various causes for aircraft unavailability. During our audit, FBI officials told
us that they antiCipate changing the reporting of unaddressed aviation
request data to include maintenance and other aircraft unavailability reasons
separately. Accordingly, we recommend that the FBI implement the
antiCipated reporting changes to identify when an aircraft is unavailable due
to maintenance separately from the other reasons why aircraft may be
unavailable.
Aviation Fleet

       The current Aviation Surveillance Branch fleet consists primarily of
                                                        The m         of the
FBI's fleet consists of
                     Exhibit 2-8 contains more information on the fleet
operated by the Aviation Surveillance Branch.




                                      34
                               Exhibit 2-8
             FBI Aviation Surveillance Branch Aircraft    es
                                                 Number
                                               of Aircraft Number of
                                               November       Aircraft
                                                  2010       Ju 2011




      Source: FBI

       As noted above in 2009, the FBI began the process of upgrading its
aircraft with the iiiIiiiiIsystem~t is divided into three
stages: (1) the installation of an _                  system in FBI aircraft;
(2) the development of aircraft for concept and usability testing; and (3) the
final integration, training, and field deployment.




      The FBI's fleet replacement plan calls for spending _      million per
year for new aircraft which FBI officials acknowledge may not be possible
with future budgets. Nevertheless, FBI officials believe that the FBI's
current replacement initiative will prevent the FBI, several years from now,
from having to replace all of its aircraft at the same time. In addition, FBI



                                      35
officials believe the standardization of the avionics systems in the FBI's fleet
will allow the FBI to 0 rate and utilize its resources more efficient and
effectivel




      When we told FBI officials that we determined that
                                                      they said they
                                                these arran ements.




        27 The FBI provided documentation after our audit close-out meet~t
it was in or at some     nt in FY 2012 would be in, a position to examine _ _ _ _

                                       36
Pre-Flight Risk Assessments

       During our audit we found that FBI pilots in the field divisions we
visited generally documented their pre-flight risk assessment on a
standardized FBI pre-flight risk assessment form. This pre-flight risk
assessment form assigns a point-value to each potential risk factor and the
cumulative pOint totals are used to categorize the flight as "minimal risk",
"low risk", "moderate risk", or "high risk." If a pre-flight risk assessment
determines that a mission is "minimal risk," the mission may proceed as
long as all pilots involved in the mission concur with the assessment. A "low
risk" determination requires the approval of the Aviation Coordinator, while a
"moderate risk" requires the approval of the pilots' assigned Supervisory
Special Agent. A "high risk" flight requires the approval of the ASAC and the
Aviation Surveillance Branch. However, the Unit Chief of the Field Flight
Operations Unit told us that the Aviation Surveillance Branch has never
approved a "high risk" flight during his tenure. At the conclusion of the
particular mission, pre-flight risk assessment forms are attached to the
pilots' flight strip and become part of the flight record.

       When we discussed the pre-flight risk assessment with the pilots in the
field divisions we visited, the pilots told us that the risk assessment form is a
useful tool that allows pilots to self-evaluate their readiness for the mission
and helps make the pilot aware of potential risks and better prepared to
                                       37
mitigate them during the mission. We found that some aviation personnel
believed these forms were mandatory, while others suggested they were
optional. In addition, at least one pilot admitted that, at times, the risk
assessment may not be prepared by pilots until after the flight. At the audit
close-out meeting, FBI aviation officials clarified that completing risk
assessment forms before take-off is mandatory and required by FBI policy.
However, because these forms are reviewed after a mission is completed we
recommend that the FBI develop a means to ensure that these forms are
completed before all aviation missions.

Conclusion

       After reviewing the FBI's unaddressed aviation request data for the
period of October 2009 and June 2010 and FBI field divisions' procedures for
reporting this data, we do not believe the FBI is capturing the true, unmet
demand for aviation support. The FBI should emphasize the capturing of
surveillance operations that would benefit from aviation support but that did
not receive the support due to unavailable aviation resources or other
reasons. Complete and consistent reporting of this data will allow the FBI to
identify and address the causes of aviation resource deficiencies in its field
divisions. In addition, collecting the case classifications for unaddressed
aviation requests should allow the FBI to better determine if it is adequately
supporting high priority program areas. In all, the data will allow the FBI to
better understand the demand for aviation resources and to better analyze
the causes for and effects of not being able to fulfill the demand.

        Consistent and accurate reporting of data regarding the unmet
demand for aviation support could also help the FBI identify field divisions
with routine aviation crew unavailability, so that the Aviation Surveillance
Branch can work with field divisions to determine the appropriate number of
pilots needed. In addition, such data could also assist the FBI in
determining the effect temporary duty aSSignments have on the availability
of aviation resources. Further, requiring field divisions to report when an
aircraft is unavailable due to maintenance separately from other causes of
aircraft unavailability should assist the Aviation Surveillance Branch in
determining the best approach to address this aviation resource deficiency in
its field divisions.




increase the safety and security of its aviation as
the FBI ensure it examines the possibility of

                                       38
                                                · Finally, the FBI should
develop a means to ensure that pre-flight risk assessments are completed
before all aviation missions.


Recommendations

     We recommend that the FBI:

     4.   Ensure that field divisions are capturing, in a consistent manner,
          data on and the appropriate reason for all surveillance operations
          that would benefit from, but that did not receive, aviation support.

     5.   Ensure that new Special Agents who are licensed pilots and
          interested in becoming Special Agent Pilots for the FBI are given
          the opportunity to maintain their flight qualifications.

     6.   Review the results of its experimental non-agent pilot program to
          determine its success in alleviating pilot shortages.

     7.   Continually assess the effect of the new _        system on its
          aviation personnel and operational needs.

     8.   Implement the anticipated reporting changes to identify when
          aircraft is unavailable due to maintenance separately from the
          other reasons why aircraft may be unavailable.

     9.


     10. Develop a means to ensure that pilots always complete pre-flight
         risk assessment forms before all aviation missions.




                                     39
                   STATEMENT ON INTERNAL CONTROLS

      As required by the Government Auditing Standards we tested as
appropriate, internal controls significant within the context of our audit
objectives. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations
of laws and regulations. Our evaluation of FBI's internal controls was not
made for the purpose of providing assurance on its internal control structure
as a whole. FBI's management is responsible for the establishment and
maintenance of internal controls.

      Through our audit testing, we did not identify any deficiencies in the
FBI's internal controls that are significant within the context of the audit
objectives and based upon the audit work performed that we believe would
affect the FBI's ability to effectively and efficiently operate, to correctly state
financial and performance information, and to ensure compliance with laws,
regulations, and other applicable requirements.

       Because we are not expressing an opinion on the FBI's internal control
structure as a whole, this statement is intended solely for the information
and use of the auditee. This restriction is not intended to limit the
distribution of this report, which is a matter of public record.




                                        40
                      STATEMENT ON COMPLIANCE
                     WITH LAWS AND REGULATIONS

      As required by the Government Auditing Standards we tested, as
appropriate given our audit scope and objective, selected transactions,
records, procedures, and practices, to obtain reasonable assurance that the
FBI's management complied with federal laws and regulations, for which
noncompliance, in our judgment, could have a material effect on the results
of our audit. FBI management is responsible for ensuring compliance with
applicable federal laws and regulations. In planning our audit, we identified
the following regulations that concerned FBI's aviation operations and that
were significant within the context of the audit objectives.

      •   41 C.F.R. § 101-37
      •   41 C.F.R. § 102-33

       Our audit included examining, on a test basis, FBI's compliance with
the aforementioned regulations that could have a material effect on FBI's
aviation operations, through interviewing personnel, analyzing data,
assessing internal control procedures, and examining procedural
practices. Nothing came to our attention that caused us to believe that
the FBI was not in compliance with the aforementioned regulations.




                                     41
                                                                 APPENDIX I
                OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

       The objective of this audit was to assess the FBI's management of its
aviation operations. Specifically, we analyzed the usage, prioritization, and
availability of FBI aviation assets, primarily focusing on its domestic-based
aviation operations for FYs 2009 and 2010.

Scope and Methodology

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objective.

     To accomplish our objective we performed work at FBI head uarters in
Washin ton, DC, and at the FBI Aviation Surveillance Branch in
         . We also visited Aviation On<:... "'T.


                                        We conducted interviews with the
Surveillance and Aviation Section Chief, Aviation Surveillance Branch
management, and other headquarters-level officials and personnel.
Additionally, at field locations, we interviewed FBI aviation personnel, such
as Assistant Special Agents in Charge, Supervisory Special Agents, Aviation
Coordinators, and Special Agents Pilots, as well as enforcement personnel
who benefit from FBI aviation support, including field division management
and Special Agents.

     In addition, we examined the FBI's procedures for requesting aviation
support and flight activity data to determine how resources were used to
support priority investigations.

Data Analysis

      We also examined FYs 2009 and 2010 FBI aviation data where
appropriate within the scope of our audit. This data was maintained within
Professional Flight Management (PFM), the software program the FBI uses to

                                      42
maintain records of aviation usage. We obtained from the FBI four files- two
each for FYs 2009 and 2010 - that contained FBI aviation activity data from
PFM. One set contained a summary of flight hours provided by each field
division categorized by type of mission. The second set contained more
detailed information on each flight mission including the provider of support,
case file number of the case supported, flight hours for the specific mission,
and aircraft utilized. We found no issues with recording and input of data
into PFM; however, our report describes one glitch in the PFM system that
caused errors in data reporting. However, with the additional information in
our report and within the context of our audit objective which examines
trends in aggregate data as opposed to individual entries, we believe the
data provided by the FBI can be used to support appropriately our audit
findings, recommendations, and conclusions.

       Our analysis Included categorizing aviation data by the type of
operation: operational, traini~ maintenance. We identified the
missions flown in support of _         FBI field divisions in FYs 2009 and 2010,
which is tracked in PFM. The majority of our analysis included more detailed
analysis of the operational data, including categorization by FBI program the
support provided to all field divisions and the individual field divisions
visited. In order to classify operational-related aviation data, we classified
the flight hours according to the investigative classification of the case
supported. The FBI assigns each investigative classification to a respective
FBI program. Finally, we obtained unaddressed aviation support work data
from the FBI covering October 2009 through June 2010 and determined that
they are in the process of enhancing the precision of the data collected by
the field divisions.

Prior OIG Report

       The OIG previously reviewed aviation operations for FBI in 1994. 41
Similar to this audit, its objective was to assess the operations of the FBI
aviation program, and to determine areas where FBI could improve the
efficiency, effectiveness, and safety of its aviation operations. This 1994
audit was part of the President's Council on Integrity and Efficiency's review
and assessment of civilian aircraft in the Executive Branch. No significant
deficiencies were found in the executive and administrative use, inventory
and disposals, continuing need, and proper operation of aircraft. However,
the audit found that the FBI aviation program lacked a comprehensive safety
program and the FBI cost of aircraft operations reported to the General


       41 U.S. Department of Justice Office of the Inspector General (OIG), Audit of the
Federal Bureau of Investigation Management of Aviation Operations, Audit Report 95-9
(December 1994).
                                             43
Services Administration for FY 1993 was understated by approximately
$2 million.




                                   44
                                                                                                       APPENDIX II

       THE FEDERAL BUREAU OF INVESTIGATION'S
              RESPONSE TO THE REPORT


                                                           U$. UcpRrtmcnt of Jusll~f


                                                          Feder':!l lillr "all ~II' In'·t:'stigation




                                                          Janl!iU)' 24.2012

CVllthia A. Sdmcdar
Oilke oflhc Inspc:clor General
U.S. Department of Justice
950 Pellm;vlvWlia Avcnuc,Korthwe.."C
Wilshin~'(;n. D.C. 20530

DCaT   Ms. Schnooar:

               TIll: FC.:\"TJlI Allrc.'\1J oflilvestigation I. FBI) approciatcs the OPPoJ1ulIity III review
:rod respond to YI.'llr n:porl entitled, "l\udit ot'lhe Fer1enll Bureau of Ilwcstigatiuu's A'o'ialiun
Operations" (hereinafter. "Report").

                   We aJ"C jlleast:d ')'ou delarnincd lh~t "when docidins 1m\\' tn pnnriti;rc: the usc of
its limilcd 3viatJOn re!ioun:e..;, FRT field divisions considered the FBT'K nati(ln:ll priorities nnd the
mO~1 3if!.lliliL:anllh~tI; in ;en office's geogl'aphic.juri~d.ic'iQn, along with the safetyanhe
O}lenllinn 1111(\ other mission-related factors," As your auditors found, Ult~ ::a...signmt:nt of IIViHtiDll
n:wurecs is 3 djl1amic t"'OCe1;S in Ollen~d by multiple factorS.

                 Ra.~(:(l upon a I'Cvicw of the RCjXlJ'l, Ill!: FRr CQIlCUfS with all ten
recofllnlt:mlaJions. The FBI appreciatcs tile pmrCS"i()n:llism exhibited by your stufft() 4,....vmph.:tc
this audi1. f..nel05oo hereinls the FBI's ru8ponsc Ii) Ihc recommendations in the- Report. PIcaS(;
fed frc:c 10 contact rue should you hll~'c any ~lIcstions.

                                                          Si ncc:I'C I)' yours,

                                                          ~~~
                                                         Robert A. Bleclsmilh
                                                         AIl!'.islnnt nirc('lor
                                                         CriLi;;allnc:idcllt }{capOllS\? (jIOLlP

Euclosure




                                                           45
                                             .-\l."DIT OF THE
                          fEDERAL Ul:REAll OF 1N\-"ESl1CATION'S
                                AVIA·f[()N OPF.R.4.TTONS


R&:port Rmt_ed..tI.oa ~l • "Wurr. that its SPIRIT 5Yitem inchldes tile t'Ww:tlon.:Jit)· CO
idmljf), '"-hcd1er a 5urvellJmc:e request pertains to a lield division priwity threat."

FBI R.lJlonH to RtltOIhIll~adldiun Nt: Concur. -rhe fBI \\iI] etWure ,hat i1s SPIRIT S)'Sbtm
5ru:ludeB the nUlCtionllliC)' to identify whctlu • l~llm:e request pen:ainf; ~ ~ 1101d divi5ion
priorit)o' thrnt.

~.P011 Rocom m.ellcladan til - "Ensure that tie Id di \'i~ijmli, Ihrough .. «nIrRli:z:oo dC!clsloR
praces$. ~sider all $\I[vcilll'lrwc opC1'!ltions when priotiti%ill8 lilt Ld~ nf ibJ uyiati on JC3OUfCCS."

.·BI lblspOJl1e 10 Jllt~ommcniiatiDn 1-%1 CCIJII.'Uf. The FBI ",;II C!11SUl'e that field diyi!lilll1!C,
throogh a centraUzed declJion ~$, olll1!iillc:r .n ~lI1i.d .unrc:Wamx: operations reql*l~
wIIcn prioritizillg lI\iation rc~,

IltfO'" Ib:mmm"n".lMt ~3 - "Eu..uIV tbllt BAO 2.0 ha~ the ability kl inC!IJrpnlllW updates aDd
addilions 10 FBI id~I!:Ati811.tivl! ",iQ&i r.~ti(ln ~5 and similar data codes tJull can Ilrr~llhe
aCICuracy and utility of the ')litem'. ~pnrli ns."

FAT Rllpuat>. I~ ReCOmllll'adlitioD"Ia: Concur, llle FBI win enl~ Ibat BAO 2.0 has the
nbllity to incotpoal\e updaln and addiUuD3 lo FBI inveltlptf\-e cla!Yllflcatlan r:!4'des and
similar da.ta codes.

Repo rt RtcolWllellddion 114 - "~nsute lhaL liell! di ,·illlwi 4lTC capturiDi- (nil coaslstmt
rrumnc:r, data on aod die appropriare muoa for all Sdno'l!llla~ upr;r~i(lm ltnIt would baldit
from, but that did not Jc"h'c, aviatioa support."

'BI Helponlt fo Hltf()mme..lla.tion H: CnnwT. 'The FBI ",ill c:nmrc that field divJlioIl1 alit
capfuring.in a coll3fstmu lnanner, data on and the aPJ'rUprilite n:uson for.U .surv~nlance
~uiolJ.5 that would bc:m:fit from, but that did not rective., ." iation ~. uppart,

RC1'tlrt Rt!~ltmm~naJlI'.c.n f#S - "Bm.un: that new Special Agents who are licensed pilot....d
inlere~td ill b~}ItLins Spooilll AgenL Pi1t.!!;. lilT the FHlllrc glV"ll the oppoJ1Unity to mailltaln
their flight quallticatlQM.."

FBI RCIPVDSI CV RecommeaduioD tIS: Concur. The fal agrees Dew Specia11\genUJ wh()
are licensed pilots aDd InrlftSled irl bI!~onUn8 Spe~11I Alcnt Pilots for the FDllhOlllIl be liven
\h,;: DppDrtunhy to JMintaiD 1beir Right qualitic.ttions. Ibis ill aa:om(iished in two \\'ay~
Fi18t. tbo FBI"s A~ilolioD S1.lPPOn llnit rcpluiy ~hCiS out to newagaJts In trainlng when ~
17D-SI6 Avilltor Qualiticaainns Form Is ~nm~lltr.c4 b)' 41 n.e"" DPTIt. This. o~l;b providci the
new agCJlt with ilnmcdia~. vaJuabl-= iDformation reaardiDG the .'81'" nillhl J'RW"'" he: lim:
\bq. re~h their fir.lt olTLco of ISiignmcnt and how tbc)' can become lnvol \'00 In flylna wltb




                                                        46
 the ml. (See IIttll1:hllll e-muils ut Tnb A). Second, 011 an al;' nocd~d basl~ FBI field ofrK!tl!I
 CIln\'U5 fbr pllCJIS IJ2tet!:S~in juininH 1I1~ FBI's niadoJ1 prostam. (Sel: Tab 8),

 RepDrt RcI:.lllmcud.tloli 116 - '~iew the nltiulhl oritl nperimelltal nOtl-.nl pil(lt program
 to ~terJnilLf; it.. JiIlCC£:"9 jn ~UI ..iatlng pilo[ sbormeeli...

FBI RespoDle fo RetDMml:tlllJdivll;6: eonau', As describe4inthc: llltached Whi~ Pupcr
(Sec Tab C), tha 1-"81 hl$ revJewocl \h~ Mulls oftht: ell..lBimentaJ notI-1I8cm pilot program and
1l1:tt..'T1llincd It was auccesldWlnllDe\illtid& pilot shol1llles. !\~ fUllciW $Iaffi~ levels permIt at
e~h Lil.:ld. offic:o, lhis   r.BJam will he filnhor exploded tD alleviate t~ noer,! rur incrcased


Rtport .Relom mendation WI - otContirlually lI,s~n the flfli:('1 Ur the oc".• • • IY'~ln an its
aviation personnel and O~rl1tillnw needs,"

FOI RCiJlUIiI. Co Recommeod.lIoD l#7: CUN:ur. The FBI v.ill c:ontitrue to IIIU.S.' the dToct.
.,r lm: ne~         I)'ltcm on i1B R\oiatlon P'M'nnncl IIQd opcmtional oeedll.

Reporl librolalllU!ud.Uon 1118 - "Implement the 1Il11lcipafoOd re))OrtLntI changlls Ie ldentify when
l1ill:ran: 15 IlnIno"'ail3btfl due tI.l mainfcnllllCC BcpIIl'ltely nom the OCher reasons why aircraft mI.)' bt1l
unltvaUabJe..•

'BI Rtlpon~t 1u RKDmmea.dauOJI mit Conc\lr. The FB[ will implemcnt reportins J"t!ilWr,:S
to Ide:ntil)' when lIiNrait is unavailable due 1Q mainlcnlUl~e 5CJIlUat~l)"lrom other reasollS wby
aircraft. may 110 unA"8ilGbl~,




                         •                                       I     :                    _    ~ "- ~.       •

I"     ..   '-.

communication dated 1.'111/2U12 (AUilebell ntTab D). the
ScL"tiort. Field                        l:nit~!!!!!
field offices.

Report R'C'lDlDmeaatioD HIO - "JJc\oelop a meaJu CO el1l\l1rC that piluls lSI 'A'a~ oomplcte pre-
flight n.oUi. INirumc:al f(JTTJl' b~ror~ aJl.,.wan mWlons,"

raJ RCllponlll. CO Rilcommea.dadoD HIO: Contut. '1'0 enslire cnmpliMncc wilb pilot,
cl)IDplelinr; pro-nil.(ht IL'!o!iC!IIlimC11t form3 ~rOR 1'111 avilltion m..i.!SiOD!i, pcrao.l1ll.el £rom the
Criticalillcldent HespoJlse Otoup will besin ch.eck.iog lhi~ r~quiTemC11t dnring on.5it~
ill$p~t;on' by ."'iation prograllllllllrlagc:rs,




                                                             47
                                                            APPENDIX III
              OFFICE OF THE INSPECTOR GENERAL
             ANALYSIS AND SUMMARY OF ACTIONS
               NECESSARY TO CLOSE THE REPORT


       The OIG provided a draft of this audit report to the FBI. The FBI's
response is incorporated in Appendix II of this final report. The following
provides the OIG analysis of the response and summary of actions necessary
to close the report.

Recommendation Number:

 1.    Resolved. The FBI concurred with our recommendation to ensure
       that its SPIRIT system includes the functionality to identify whether a
       surveillance request pertains to a field division priority threat.

       This recommendation can be closed when we receive evidence that
       the FBI's SPIRIT system includes the functionality to identify whether
       a surveillance request pertains to a field division priority threat.

 2.    Resolved. The FBI concurred with our recommendation to ensure
       that field divisions, through a centralized decision process, consider
       all surveillance operations when prioritizing the use of its aviation
       resources.

       This recommendation can be closed when we receive evidence that
       FBI field divisions, through a centralized decision process, consider
       all valid surveillance operation requests when prioritizing the use of
       their aviation resources.

 3.    Resolved. The FBI concurred with our recommendation to ensure
       that BAO 2.0 has the ability to incorporate updates and additions to
       FBI investigative classification codes and similar data codes that can
       affect the accuracy and utility of the system's reporting.

       This recommendation can be closed when we receive evidence that
       BAO 2.0 has the ability to incorporate updates and additions to FBI
       investigative classification codes and similar data codes.




                                     48
4.   Resolved. The FBI concurred with our recommendation to ensure
     that field divisions are capturing, in a consistent manner, data on and
     the appropriate reason for all surveillance operations that would
     benefit from, but that did not receive, aviation support.

     This recommendation can be closed when we receive documentation
     that field divisions are capturing, in a consistent manner, data on and
     the appropriate reason for all surveillance operations that would
     benefit from, but that did not receive, aviation support.

5.   Resolved. The FBI concurred with our recommendation to ensure
     that new Special Agents who are licensed pilots and interested in
     becoming Special Agent Pilots for the FBI are given the opportunity
     to maintain their flight qualifications. The FBI stated that it
     accomplishes this in two ways. One, the FBI stated that its Aviation
     Support Unit regularly reaches out to new agents in training who
     complete the FBI's Aviator Qualifications Form. The FBI stated that
     this outreach provides new agents with information regarding the
     FBI's aviation program before they reach their first office of
     assignment. The FBI provided examples of communication between
     aviation program staff and new agents in training who completed the
     FBI's Aviator Qualifications Form. In addition to these examples we
     request that the FBI provide the DIG documentation on the FBI's
     procedure to ensure that all new trainees receive the Aviator
     Qualifications Form and are provided basic instructions on becoming
     a pilot for the FBI.

     Two, the FBI stated in its response that, on an as needed basis, FBI
     field divisions solicit agents interested in joining the FBI's aviation
     program. With its response to the report, the FBI provided evidence
     that this type of solicitation recently occurred in one field division.

     This recommendation can be closed when we receive documentation
     of the process by which the FBI regularly solicits Aviator
     Qualifications Forms from new agents in training and additional
     evidence that, on an as needed basis, the FBI attempts to recruit
     agents with flight experience to help address pilot shortages in its
     field divisions.




                                   49
6.   Closed. The FBI concurred with our recommendation to review the
     results of its experimental non-agent pilot program to determine its
     success in alleviating pilot shortages. The FBI provided with its
     response a summary of its review of the non-agent pilot program,
     which included specifics on the FBI's ability to address pilot shortages
     in certain field offices and its plan for expanding the program to
     other offices. The FBI further stated that it will expand its non-agent
     pilot program at each field office as funded staffing levels permit.

     Based on our review of the information provided by the FBI, we
     determined that the FBI adequately addressed our recommendation.
     Therefore, this recommendation is closed.

7.   Resolved. The FBI concurred with our recommendation to
     continually assess the effect of the new _  system on its
     aviation personnel and operational needs.

     This recommendation can be closed when we receive documentation
     of the FBI's assessment of the effect of the new _        system on
     its aviation personnel and operational needs over the course of a
     12-month period.

8.   Resolved. The FBI concurred with our recommendation to
     implement the anticipated reporting changes to identify when aircraft
     is unavailable due to maintenance separately from the other reasons
     why aircraft may be unavailable.

     This recommendation can be closed when we receive documentation
     of the reporting features that identify when aircraft are unavailable
     due to maintenance separately from other reasons why aircraft may
     be unavailable.

9.   Resolved. The FBI concurred with our recommendation to ensure
     that it examines the ossibil of




     in FY 2012.

     This recommendation can be closed when we receive documentation
     that the


                                   50
10.   Resolved. The FBI concurred with our recommendation to develop a
      means to ensure that pilots always complete pre-flight risk
      assessment forms before all aviation missions. The FBI stated in its
      response that, to ensure compliance with pilots completing pre-flight
      assessment forms, personnel from the Critical Incident Response
      Group will begin checking this requirement during on-site inspections
      by aviation program managers. We believe this is a good addition to
      an on-site inspection of a field division's aviation program. However,
      a periodic review such as an on-site inspection does not best ensure
      that each risk assessment is performed before each take off. We
      believe that the FBI should institute a control that better enables it to
      ensure its pilots are completing risk assessment forms before
      aviation missions. As we noted in our report, we found during our
      review that risk assessments may not be prepared by pilots until
      after the flight.

      This recommendation can be closed when we receive evidence that
      the FBI has developed a means for better ensuring that pilots are
      completing pre-flight assessment forms before all aviation missions.




                                     51
